1a

See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of Appeals 4th Cir.
Rule 32.1.
United States Court of Appeals, Fourth Circuit.
Dexter EDWARDS, d/b/a Edwards Land & Cattle,
Plaintiff - Appellant,
and
Nicholas Edwards, d/b/a Edwards Land & Cattle,
Plaintiff,
v.
GENEX COOPERATIVE, INC., Defendant Appellee.
No. 18-1183
Argued: March 21, 2019Decided: June 13, 2019
Appeal from the United States District Court for the
Eastern District of North Carolina, at Raleigh.
Terrence W. Boyle, Chief District Judge. (7:16-cv00053-BO)
Attorneys and Law Firms
ARGUED: Kennedy Lee Thompson, Eugene Cebron
Thompson, III, THOMPSON & THOMPSON, P.C.,
Warsaw, North Carolina, for Appellant. J. Matthew
Little, TEAGUE, CAMPBELL, DENNIS &
GORHAM, LLP, Raleigh, North Carolina, for
Appellee. ON BRIEF: Rebecca R. Thornton,
TEAGUE, CAMPBELL, DENNIS & GORHAM, LLP,
Raleigh, North Carolina, for Appellee.

2a

Before WYNN, DIAZ, and THACKER, Circuit Judges.
Opinion
Affirmed by unpublished per curiam opinion.
Unpublished opinions are not binding precedent in this
circuit.
PER CURIAM:
Dexter Edwards (“Appellant”) filed suit against
Genex Cooperative, Inc. (“Genex”) alleging a single
claim for breach of contract. Appellant appeals the
district court’s (1) award of summary judgment to
Genex; (2) denial of Appellant’s motion for judgment on
the pleadings or, in the alternative, summary judgment;
and (3) denial of Appellant’s motions to amend the
complaint to add an additional claim for violation of the
North Carolina Unfair and Deceptive Trade Practices
Act (“UDTPA”). Appellant asserts that there is only an
oral contract between the parties, and that the written
contracts -- which Genex asserts govern the parties’
relationship -- are invalid for a number of reasons.
We conclude that, regardless of whether
Appellant’s breach of contract claim is predicated upon
a written or oral contract, the claim fails as a matter of
law. Further, we conclude that the district court did not
abuse its discretion in denying Appellant’s request to
amend his complaint, because such amendment would
have been futile. Accordingly, we affirm.
I.
A.
Factual History

3a

Appellant operates Edwards Land and Cattle, a
business “engaged in the genetic reproduction of cattle
[that] specializes in ‘pure-bred genetics.’ ” J.A. 66.1
Appellant’s son, Nicholas Edwards (“Edwards”),
manages the farm in North Carolina where the cattle
are reproduced.
The genetic reproduction of cattle requires
Appellant to collect “genetically elite semen from prize
bulls and genetically elite embryos from prize cows.
Subsequently, the semen and embryos are matched to
produce ‘super elite’ offspring.” J.A. 66–67. Appellant
stores and preserves these biological products on his
farm in seven metal tanks filled with liquid nitrogen.2
The liquid nitrogen freezes these products thus
allowing Appellant to “preserve elite semen and
embryos from deceased sires and dams3 and
consequently, to produce ‘super elite’ animals.” Id. But,
because liquid nitrogen vaporizes over time, the tanks
must be refilled on a regular basis so that the tanks do
not become dry. If the tanks were to become dry, the
biologic products stored inside would thaw and spoil.
1.
The Agreements
Genex supplied Appellant with liquid nitrogen
for over 15 years. During the first few years of the
business relationship, the parties did business without a
written agreement. But, in 2004, Genex and Edwards
entered into several Liquid Nitrogen Service
Agreements (the “Agreements”) for the supply and
delivery of liquid nitrogen for Appellant’s tanks.
Appellant did not review the Agreements himself but
instead left the Agreements for Edwards to handle on
behalf of Edwards Land and Cattle. Notably, Appellant

4a

acknowledged that, although Edwards signed the
Agreements, Edwards likely did not review the
Agreements before signing.
The Agreements provide that Genex would
regularly provide liquid nitrogen services to Appellant.
Genex refilled Appellant’s tanks with liquid nitrogen
approximately every 12 weeks, although Appellant
could request an earlier refill if necessary. Significantly,
the Agreements expressly state that the “[Appellant]
accepts full and sole responsibility to ... monitor [the
liquid nitrogen] level routinely.” J.A. 60. And, the
Agreements also contain a clause stating that Genex
“will not accept responsibility or liability for embryos
or any other frozen biologic products stored in
customer’s tank(s) that are filled with [liquid nitrogen]
by its employees.” Id. (the “limitation of damages
clause”). The Agreements were to “remain in effect
unless terminated in writing by 60 days[’] notice from
either party.” Id.
2.
Monitoring of the Tanks
In 2013, nine years after the Agreements were
signed, Genex’s territory sales manager and technician,
Corey Peters, began placing neon green stickers on
Appellant’s tanks. The stickers reiterated Appellant’s
responsibility to monitor the liquid nitrogen levels in
the tanks. Specifically, the stickers provided:
DISCLAIMER: Owner/user is responsible for
monitoring nitrogen level, making sure [liquid
nitrogen] unit is filled regularly and kept in good
working order. If tank is found to be low in
[liquid nitrogen], owner/user must immediately
call a[ ] [liquid nitrogen] provider for refill.

5a

No Genex Cooperative, Inc. Representative has
authority to relieve user of this responsibility.
J.A. 407. At his deposition, in response to a question by
Genex’s counsel, Edwards testified that he did not
attempt to read the disclaimer sticker. See id. at 142
(“Q: Have you ever read or tried to understand what
that disclaimer said? A: No, ma’am....”).
Appellant’s seven tanks were stored on rubber
mats (to prevent damage to the tanks from the concrete
floor) in Edwards’s unlocked office on the farm.
Appellant testified that he and Edwards monitored the
tanks in three ways: first, by visually inspecting the
tanks; second, by lifting the tanks to gauge the weight;
and third, by inserting a black ruler (essentially, a
dipstick) into the tanks to check the actual liquid
nitrogen levels.
But, according to Appellant and Edwards,
neither Appellant nor Edwards regularly checked the
levels in the tanks outside of breeding season. Edwards
testified, “when we’re not breeding cows I’m not
monitoring [the tanks] a lot ... it’s just one of those deals
that I’m not in and out of [the tanks] checking them.”
J.A. 139. Edwards further testified that outside of
breeding season, he would “see [the tanks] everyday as
far as walking through and seeing they’re there; but as
far as checking the nitrogen, I wasn’t checking it.” Id.
at 140.
Thus, during the non-breeding season -- from
June to October -- Appellant and Edwards simply
visually inspected the tanks as they passed through the
office. Such an inspection, however, would only allow an
observer to detect signs of tank failure -- for example, a
puncture in the tank leading to a loss of vacuum might
result in visible condensation on the tank or on the

6a

rubber mats on which the tanks were kept.4 Merely
looking at the tanks does not indicate the actual level of
liquid nitrogen in the tanks.
In contrast, during breeding season, Appellant
or Edwards would actually measure the level of liquid
nitrogen in the tanks with a dipstick a “couple times a
month.” J.A. 140. Appellant and Edwards also routinely
lifted the tanks to check the weight of each tank -- an
empty tank weighed approximately 30 pounds, while a
full tank (freshly refilled) weighed roughly 80 pounds. If
Appellant or Edwards discovered that a tank felt light,
they “would stick [a] measuring tool down to see the
frost line” and if the line was getting low, they would
call Peters to assure that the next delivery would be
occurring on schedule. Id. at 333. According to
Appellant, calling Peters to confirm that he would be
filling the tanks soon happened “very few times.” Id. at
334.
3.
Tank Refill Process
Appellant did not keep track of when the tanks
were refilled. Genex’s technician, Peters, did not call
ahead when he came to fill the tanks. Instead, Peters
would simply enter Edwards’s unlocked office, take the
tanks to his truck, fill the tanks with liquid nitrogen,
return the tanks, and leave a receipt on Edwards’s
office desk. These receipts -- printed on half sheets of
green paper -- indicated that Peters had been at the
farm and had filled the tanks on that day. However,
Edwards testified he “never really kept up with those
little green pieces of paper that [Peters] would leave”
and did not regularly retain the receipts for his records.
J.A. 138. After Peters had serviced the tanks, Genex’s
main office would generate an invoice and send it to

7a

Appellant for payment. According to Genex, the billing
date and the service date should match unless the
territory sales manager (here, Peters) made a mistake
in entering the sale information. The invoice date, on
the other hand, reflects the date that the invoice was
actually generated, not the date of service.
Peters would also typically note the date of
service on a hanging tag attached to a tank. Appellant
noted that Peters “signed [the tag] each and every time
that he c[a]me and filled the tank except [August 31,
2015] the last time that he filled it up.” J.A. 330.
Regardless, Appellant conceded that he did not check
the hanging tag with any regularity, because there had
not been any issues with nitrogen levels in the past. See
id. at 162 (Appellant’s deposition) (“I didn’t pay a lot of
attention to that tag until this happened.... Before that
there was never an opportunity for me to see [Peters]
didn’t date it.”).
4.
Cancellation of the Agreements
On July 13, 2015, Peters filled Appellant’s tanks
and noted the date of service on the hanging tag. Peters
testified that he left a receipt, as was his custom, on
Edwards’s desk in the office.
On September 23, 2015, Appellant received a
letter (dated September 17, 2015) from Genex, which
stated that Genex would no longer be providing liquid
nitrogen services in Appellant’s area and thus would
not be filling Appellant’s tanks again. The letter
expressly stated that Appellant’s “tank was last
serviced on 8/31/2015 to allow [Appellant] time to find a
new provider.” J.A. 244. The letter was accompanied by
an invoice for seven filled tanks, dated August 31, 2015.

8a

Critically, however, there was no August 31 delivery.
Neither the cancellation letter nor the invoice contained
any indication that the last fill date was actually July
13, as opposed to August 31. Based upon this, Appellant
believed that the tanks would need to be refilled in midOctober. But, Appellant did not verify the liquid
nitrogen levels in the tanks.
While the Agreements provide that Genex
would give 60 days’ notice of termination, Genex admits
that it did not provide such notice. See J.A. 420 (Genex’s
interrogatory responses) (“The failure to provide the
full 60 day termination notice was an inadvertent
error.”). Rather, the September 17, 2015 cancellation
letter expressly stated that termination of the
Agreement was effective upon Appellant’s receipt of
the letter. According to Genex, it did not give 60 days’
notice of termination because it was not only ending its
contract with Appellant but ceasing all liquid nitrogen
services in Appellant’s area.
5.
Discovery of the Empty Tanks
On October 12, 2015, Edwards “discovered that
four of the seven tanks were completely empty and the
other[s] were extremely low.” J.A. 74. At that point,
Edwards says he first called and left a message for
Peters, which was not returned. Edwards then
contacted
Appellant,
who
also
attempted,
unsuccessfully, to contact Peters. Edwards then called
another liquid nitrogen supplier in an effort to fill the
tanks. Edwards was able to have the tanks filled
shortly after. But, despite the quick refill of liquid
nitrogen, four of the seven tanks suffered losses of
semen and embryos.

9a

After Appellant learned of the empty tanks,
Appellant checked the hanging tag on the tank and
noticed, for the first time, that Peters had not written
down an August 31 fill date. Rather, the last fill date
noted on the tag was July 13, 2015. According to
Appellant, he did not check the tag previously because,
“there was never an opportunity for [him] to see
[Peters] didn’t date it.” J.A. 332.
Prior to October 12, the last time either
Appellant or Edwards actually checked the levels of
liquid nitrogen in the tanks was June or July of 2015.
See J.A. 382 (Edwards’s deposition) (“Q: And then how
often between June or July and October do you monitor
the tanks? A: I mean, I see them everyday as far as
walking through and seeing they’re there; but as far as
checking the nitrogen, I wasn’t checking it.”). At his
deposition, Edwards testified that “the last time [he]
was in [the tanks] ... would have been somewhere [in]
June, or first of July, something like that, was probably
the last time [he] was in [the tanks].” Id. at 385.
On October 14, 2015, Appellant again attempted
to contact Genex. Appellant wrote a letter to Genex,
which informed Genex of the error and the resulting
financial loss. According to Genex, it was “unsure that
it received the letter.” J.A. 422. Regardless, Genex did
not respond to either Appellant’s letter or calls.
B.
Procedural History
On March 24, 2016, Appellant and Edwards filed
a complaint against Genex in the Eastern District of
North Carolina. They raised a single claim of breach of
contract, predicated on Genex’s failure to timely deliver
and properly invoice liquid nitrogen.

10a

1.
The First Motion to Amend
On December 14, 2016, Appellant filed his first
motion to amend the complaint. Specifically, Appellant
sought to amend the complaint to remove Edwards as a
plaintiff (leaving himself as the only plaintiff) and to add
a UDTPA claim. The UDTPA claim was based upon
Genex’s failure to return Appellant’s phone calls,
invoicing of Appellant for an August 31, 2015 delivery
that did not occur, and the failure to promptly invoice
Appellant.
On April 13, 2017, the district court granted the
motion to amend insofar as it sought to remove
Edwards as a plaintiff but denied the motion insofar as
it sought to add a UDTPA claim. The district court
concluded that such an amendment would be futile,
because Appellant’s amended complaint only “cites to
[Genex’s] irresponsible and unprofessional conduct as
well as its inattention to detail,” which the district court
found was “simply insufficient to support the
aggravating circumstances necessary to sufficiently
allege a UDTP[A] claim.” J.A. 47.
2.
Deposition of Peters
On February 16, 2017, after Appellant filed his
first motion to amend but before the district court ruled
on the motion, Appellant deposed Peters. Peters
testified that if Appellant had tried to call him -- as
Appellant alleged -- he would not have been able to
respond to the call after the date of termination.
Specifically, Peters stated that Genex told him “after a
cancellation was sent, [he was] not allowed ... to sell or

11a

to reach out to [Appellant] anymore.” J.A. 84. Peters
was notified of the cancellation of Appellant’s contract
on September 17, 2015, a month before Appellant
discovered the empty tanks. Peters further testified
that, as of July 14, 2015 (the day after Peters filled
Appellant’s tanks for the last time), it was Appellant’s
responsibility -- not Genex’s -- to monitor the tanks.
3.
The Second Motion to Amend
On May 5, 2017, Appellant filed a second motion
to amend the complaint. Appellant again sought to
amend the complaint to add a UDTPA claim. In support
of his motion, Appellant conceded that the district court
had previously denied his very similar motion to amend
but Appellant believed that the denial was a result of
counsel’s inarticulate phrasing of the claim. Further,
Appellant proffered that, since the first motion to
amend was filed, Peters had been deposed and testified
that Genex had instructed him not to contact Appellant
after the cancellation was sent. Appellant alleged that
this (in addition to the allegations Appellant raised in
his first motion to amend) was immoral, unethical, and
misleading. Therefore, Appellant argued, the district
court should grant the motion to amend the complaint
to include a UDTPA claim.
On September 7, 2017, the district court denied
Appellant’s second motion to amend. Specifically, the
district court found that Appellant “failed to plead any
substantial aggravating circumstances surrounding the
alleged breach of contract to support his [UDTPA]
claim” and instead relied on the same allegations of
“dilatory, irresponsible, and unprofessional acts” that
the district court had previously held “are simply

12a

insufficient.” J.A. 107–08. The district court further
noted that “while Mr. Peters’[s] deposition was taken
after [Appellant’s] first motion to amend was filed, it
was taken three days prior to the motion to amend
being submitted to the undersigned, and [Appellant]
failed to notify the Court of its existence during the
pendency of the motion to amend.” Id. at 108.
Regardless, the district court found that Peters’s
deposition testimony did “not reveal substantial
aggravating factors.” Id. Therefore, the district court
again held that amendment of Appellant’s complaint to
add a UDTPA claim would be futile.
4.
Dismissal of the Action
a.
Genex’s Motion
On September 8, 2017, Genex filed a motion for
summary judgment. Genex presented two arguments in
support of this motion. First, Genex argued there was
no evidence that Genex breached its contract with
Appellant, and if there was a breach, the breach was
not material. Second, Genex asserted, even if the court
determined that Genex had materially breached the
contract, “the terms of the contract contained a
limitation of damages clause associated with loss of
embryos” and, therefore, Genex was entitled to partial
summary judgment as to “whether [Appellant] was
entitled to recover damages associated with loss of
embryos.” J.A. 110.
In response, Appellant asserted, first, that
Genex had materially breached the Agreements by: (1)
failing to deliver liquid nitrogen on August 31, 2015; and
(2) failing to give 60 days’ notice. Second, Appellant

13a

argued that he did not breach the contract with Genex
by failing to routinely monitor the tanks because: (1)
there was only an oral agreement between the parties,
not a valid written contract, and thus there was no
monitoring requirement; and (2) Appellant regularly
monitored the tanks by visual inspection. Finally,
Appellant argued that Genex should be equitably
estopped from raising the argument that Appellant
breached a contract by failing to routinely monitor the
tanks, because Appellant had reasonably relied on
Genex’s misrepresentation that the tanks had been
filled on August 31.
Appellant also asserted that there was no
enforceable written contract between the parties
because: (1) Appellant had not signed the Agreements;
(2) Edwards lacked authority to sign the Agreements
on Appellant’s behalf; (3) Edwards signed the
Agreements on the wrong line; (4) the limitation of
damages clause was unenforceable due to ambiguity or
unconscionability; and (5) Edwards is dyslexic and
could not understand the Agreements.
b.
Appellant’s Motion
On September 14, 2017, Appellant filed a motion
for judgment on the pleadings or, in the alterative, for
summary judgment. Appellant argued that he was
entitled to judgment in his favor based upon “the
allegations of [Appellant’s] Complaint and the
admissions of [Genex’s] Answer.” J.A. 264. Specifically,
Appellant asserted that his complaint and Genex’s
answer established that: (1) “there was an agreement
between the parties for the delivery of Liquid
Nitrogen”; (2) “timely and adequate delivery of the
Liquid Nitrogen is essential to the elite reproduction

14a

process” on which Appellant’s business is based; (3)
Genex last delivered liquid nitrogen on July 13, 2015,
not August 31, and Genex breached the contract by
failing to make such delivery on August 31; (4) Genex
“sent [Appellant] a ‘bill’ for $ 210.00 for filling the tanks
on August 31, 2015 when in fact there was no delivery
made”; and (5) Genex erroneously told Appellant it had
filled the tanks on August 31. Id. at 264–65.
Further,
Appellant
asserted
that
the
Agreements were invalid because: (1) Edwards lacked
authority to bind Appellant to a contract; (2) Edwards
signed the Agreements in the wrong place; (3) the
“entire agreement” is “ambiguous in many respects”;
and (3) the limitation of damages clause is
unconscionable. J.A. 275.
In response, Genex argued judgment for
Appellant was inappropriate because the valid contract
between the parties -- entered into by Edwards on
behalf of Appellant -- placed the responsibility on
Appellant to routinely monitor the liquid nitrogen
levels in his tank. Genex further argued, because
Appellant failed to routinely monitor the liquid nitrogen
levels in his tank, Appellant had breached the
Agreements. Finally, Genex argued, even if there was
no valid written contract, “there are no facts [pled]
establishing the existence of a verbal contract” and,
therefore, Appellant could not sustain a breach of
contract claim regardless. J.A. 443.
c.
The District Court’s Order
On January 3, 2018, the district court held a
hearing on both dispositive motions. Thereafter, on
February 8, 2018, the district court granted Genex’s
motion for summary judgment and denied Appellant’s

15a

motion for judgment on the pleadings or, in the
alternative, summary judgment.
As to Genex’s motion for summary judgment,
the district court concluded that Appellant had failed to
raise a genuine issue of material fact as to whether
Genex had breached the contract. Further, the district
court found the written “contract terms provided that
[Genex] would fill [Appellant’s] storage tanks with
liquid nitrogen and that [Appellant] would be
responsible for monitoring the liquid nitrogen levels in
the tanks to prevent loss of or damage to his stored
biologic products.” J.A. 512. Based upon this, the
district court found that Genex did not materially
breach the contract by failing to deliver liquid nitrogen
on August 31, by failing to give 60 days’ notice, or by
failing to promptly invoice for the tanks. Accordingly,
the district court granted Genex’s motion for summary
judgment and dismissed the action.
As to Appellant’s motion, the district court found
Appellant’s arguments as to the invalidity of the
contract unavailing and held “[t]he terms of the
contract between [the parties] plainly provide that the
responsibility to monitor the liquid nitrogen levels in
the storage tanks was solely [Appellant’s].” J.A. 509.
The district court further held that even if there was no
valid written contract, Appellant’s motion could not be
granted because he “failed to plead or establish the
terms of [a] verbal contract.” Id. at 511. The district
court also found that even if Appellant had successfully
pled a valid oral contract, Appellant “ha[d] proffered no
allegation or evidence that this contract was for a
definite term, and thus the oral contract would have
been terminable at will by either party.” Id.
Appellant appeals the district court’s orders
denying his motion to amend and motion for judgment

16a

on the pleadings or, in the alternative, for summary
judgment, as well as the district court’s order granting
Genex’s motion for summary judgment.
II.
A.
Motions to Amend
Appellant first argues that the district court
erred in denying his motions to amend the complaint to
add a UDTPA claim. We review a district court’s denial
of a motion to amend for abuse of discretion. See
Wilkins v. Montgomery, 751 F.3d 214, 220 (4th Cir.
2014). The district court has broad discretion to deny
leave to amend, “so long as it does not outright refuse
to grant the leave without any justifying reason.”
Equal Rights Ctr. v. Niles Bolton Assocs., 602 F.3d 597,
603 (4th Cir. 2010) (internal quotation marks omitted).
“A district court abuses its discretion by resting its
decision on a clearly erroneous finding of a material
fact, or by misapprehending the law with respect to
underlying issues in litigation.” Scott v. Family Dollar
Stores, Inc., 733 F.3d 105, 112 (4th Cir. 2013) (internal
quotation marks omitted).
Relevant here, “[a] district court may deny a
motion to amend when the amendment would be
prejudicial to the opposing party, the moving party has
acted in bad faith, or the amendment would be futile.”
Equal Rights Ctr., 602 F.3d at 603. “A proposed
amendment is futile when it is clearly insufficient or
frivolous on its face.” Save Our Sound OBX, Inc. v.
N.C. Dep’t of Transp., 914 F.3d 213, 228 (4th Cir. 2019)
(internal quotation marks omitted).
Appellant asserts the district court erred in concluding
that amendment would be futile. Appellant asserts he

17a

successfully pled sufficient facts to support a UDTPA
claim. We disagree.
1.
The Unfair and Deceptive Trade Practices Act
The UDTPA provides, in part, “Unfair methods
of competition in or affecting commerce, and unfair or
deceptive acts or practices in or affecting commerce,
are declared unlawful.” N.C. Gen. Stat. § 75-1.1(a).
Under North Carolina law, the elements of a UDTPA
claim are: “(1) an unfair or deceptive act or practice or
an unfair method of competition; (2) in or affecting
commerce; (3) that proximately causes actual injury to
the plaintiff or to his business.” RD & J Props. v.
Lauralea-Dilton Enters., 165 N.C.App. 737, 600 S.E.2d
492, 500 (2004). To prevail on such a claim, “a plaintiff
need not show fraud, bad faith, or actual deception.” Id.
at 500–01. Rather, “it is sufficient if a plaintiff shows
that a defendant’s acts possessed the tendency or
capacity to mislead or created the likelihood of
deception.” Id. at 501.
Critically, to plead a successful UDTPA claim, a
plaintiff must allege egregious or aggravating
circumstances -- a mere mistake is, generally,
insufficient. See Phelps Staffing, LLC v. C.T. Phelps,
Inc., 226 N.C.App. 506, 740 S.E.2d 923, 929 (2013)
(plaintiff had not “alleged any conduct by [defendant]
that amounted to anything other than a billing error”
and thus failed to establish that this conduct “amounted
to egregious or aggravating circumstances”). This is the
case because the UDTPA “is not intended to apply to
all wrongs in a business setting.” HAJMM Co. v. House
of Raeford Farms, Inc., 328 N.C. 578, 403 S.E.2d 483,
492 (1991). “North Carolina courts are extremely
hesitant to allow plaintiffs to attempt to manufacture a

18a

tort action and allege [a UDTPA claim] out of facts that
are properly alleged as a breach of contract claim.”
Jones v. Harrelson & Smith Contractors, LLC, 194
N.C.App. 203, 670 S.E.2d 242, 259 (2008), aff’d by 363
N.C. 371, 677 S.E.2d 453 (2009). Accordingly, “[a] mere
breach of contract, even if intentional, is not an unfair
or deceptive act under [the UDTPA].” Bob Timberlake
Collection, Inc. v. Edwards, 176 N.C.App. 33, 626
S.E.2d 315, 323 (2006). Rather, to successfully plead a
UDTPA claim predicated upon a breach of contract, a
plaintiff
“must
show
substantial
aggravating
circumstances attending the breach to recover under
the Act.” Eastover Ridge, LLC v. Metric Constructors,
Inc., 139 N.C.App. 360, 533 S.E.2d 827, 833 (2000)
(internal quotation marks omitted).
2.
Appellant’s Proposed UDTPA Claim
Appellant’s allegations in support of a UDTPA
claim in the proposed amended complaints were, in
essence, that: (1) Genex breached the contract between
the parties; (2) Genex misrepresented the fill date of
the
tanks;
(3)
Appellant
relied
on
the
misrepresentation, to his detriment; and (4) Genex
instructed its employees to end communications with
former customers once the contracts were terminated.
Appellant does not allege that Genex
intentionally lied about the final fill date of the tanks,
and the undisputed record reflects that the date listed
on the cancellation notice and the final invoice were the
product of an unfortunate clerical error. Appellant
simply failed to allege “any conduct by [Genex] that
amounted to anything other than ... [an] error”
attending the alleged breach of contract. Phelps

19a

Staffing, 740 S.E.2d at 929. An error alone is
insufficient to “show substantial aggravating
circumstances attending the breach.” Watson Elec.
Constr. Co. v. Summit Cos., 160 N.C.App. 647, 587
S.E.2d 87, 95 (2003) (internal quotation marks omitted).
This conduct, without more, simply does not amount to
the egregious or aggravating circumstances attending a
breach of contract necessary to transform an ordinary
breach of contract claim into a UDTPA claim. See
Jones, 670 S.E.2d at 259.
Finally, while Appellant relies heavily upon the
disproportionate consequences of this error in support
of his motions to amend (the loss of highly valued
biological products), this argument is also insufficient.
A successful UDTPA claim requires aggravating or
egregious circumstances accompanying a breach of
contract. It is not enough to allege aggravating or
egregious results of a breach. If that were the case,
then any contract dispute that results in serious losses
could present a valid UDTPA claim, a result North
Carolina courts have repeatedly rejected. See, e.g.,
Jones, 670 S.E.2d at 259 (“North Carolina courts are
extremely hesitant to allow plaintiffs to attempt to
manufacture a tort action and allege [a] UDTP[A claim]
out of facts that are properly alleged as a breach of
contract claim.”); Bartolomeo v. S.B. Thomas, Inc., 889
F.2d 530, 535 (4th Cir. 1989) (“[A] plaintiff must show
substantial aggravating circumstances attending the
breach to recover under the [UDTPA]....” (emphasis
supplied)).
Accordingly, we affirm the district court’s denial
of Appellant’s motions to amend.
B.
Contract Claim

20a

1.
Appellant argues that the district court
erroneously granted judgment in favor of Genex for
two reasons.
First, Appellant argues that there is no valid
written contract between the parties. But, if we were to
determine that a valid written contract does exist,
Appellant argues that (1) Genex breached the contract;
(2) he satisfactorily complied with the monitoring
requirement of the contract by visually monitoring the
tanks; and (3) even if he did not comply with the
monitoring requirement, Genex should be estopped
from defensively asserting as much. Second, Appellant
asserts that there is a valid oral contract between the
parties that Genex breached by failing to deliver liquid
nitrogen on August 31.
Regardless of whether we conclude that there is
a written contract, an oral contract, or no contract at
all, the result is the same: Appellant has no valid claim
for breach of contract.
2.
We review a district court’s grant of summary
judgment de novo. See Gen. Ins. Co. of Am. v. United
States Fire Ins. Co., 886 F.3d 346, 353 (4th Cir. 2018).
We also “review de novo the district court’s ruling on a
motion for judgment on the pleadings pursuant to
Federal Rule of Civil Procedure 12(c), and in doing so,
apply the standard for a Rule 12(b)(6) motion.” W.C. &
A.N. Miller Dev. Co. v. Cont’l Cas. Co., 814 F.3d 171,
175–76 (4th Cir. 2016).
A district court may grant summary judgment
only “if the movant shows that there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ. P.

21a

56(a). While we take the facts in the light most
favorable to the non-moving party, “it is ultimately the
nonmovant’s burden to persuade us that there is indeed
a dispute of material fact. [He] must provide more than
a scintilla of evidence -- and not merely conclusory
allegations or speculation -- upon which a jury could
properly find in [his] favor.” CoreTel Va., LLC v.
Verizon Va., LLC, 752 F.3d 364, 370 (4th Cir. 2014)
(citation omitted). “A dispute is genuine if a reasonable
jury could return a verdict for the nonmoving party.”
Jacobs v. N.C. Admin. Office of the Courts, 780 F.3d
562, 568 (4th Cir. 2015) (internal quotation marks
omitted).
Under North Carolina law, “[t]he elements of a
claim for breach of contract are (1) existence of a valid
contract and (2) breach of the terms of that contract.”
Poor v. Hill, 138 N.C.App. 19, 530 S.E.2d 838, 843
(2000). “Courts may enter summary judgment in
contract disputes because they have the power to
interpret the terms of contracts.” McKinnon v. CV
Indus., Inc., 213 N.C.App. 328, 713 S.E.2d 495, 500
(2011). “Where the language of a contract is plain and
unambiguous, the construction of the agreement is a
matter of law; and the court ... must construe the
contract as written, in the light of the undisputed
evidence as to the custom, usage, and meaning of its
terms.” Hodgin v. Brighton, 196 N.C.App. 126, 674
S.E.2d 444, 446 (2009) (internal quotation marks
omitted).
Appellant argues, first, that there is no written
contract. Appellant argues, instead, that there is an oral
contract that governs the parties’ relationship.
a.
Written Contract

22a

Appellant argues that no written contract exists.
Alternatively, Appellant argues that if the Agreements
are valid written contracts, the district court should not
have granted judgment in Genex’s favor, because
Genex should have been equitably estopped from
asserting that Appellant had breached the contract by
failing to routinely monitor the liquid nitrogen levels in
the tanks. We first address Appellant’s equitable
estoppel argument.
i.
Equitable Estoppel
Appellant argues that Genex should be estopped
from asserting that he failed to monitor the liquid
nitrogen levels because Appellant reasonably relied
upon Genex’s misrepresentation that the tanks were
filled on August 31. Specifically, Appellant argues that,
although he could have discovered the true fill date “by
being overly diligent,” he “was not required to make
extensive
inquiry
under
the
circumstances.”
Appellant’s Br. 25.
To determine whether equitable estoppel
applies, the court must weigh the conduct of both
parties “in the balances of equity and the party claiming
the estoppel no less than the party sought to be
estopped must conform to fixed standards of equity.”
Hawkins v. M. & J. Fin. Corp., 238 N.C. 174, 77 S.E.2d
669, 672 (1953). As relevant here, as to Appellant -- the
party asserting estoppel -- the elements are:
(1) lack of knowledge and the means of
knowledge of the truth as to the facts in
question; (2) reliance upon the conduct of the
party sought to be estopped; and (3) action based

23a

thereon of such a character as to change his
position prejudicially.
Wade S. Dunbar Ins. Agency, Inc. v. Barber, 147
N.C.App. 463, 556 S.E.2d 331, 336 (2001). “A party
cannot rely on equitable estoppel if it was put on
inquiry as to the truth and had available the means for
ascertaining it.” Id. (internal quotation marks omitted).
Here, Appellant cannot invoke equitable
estoppel against Genex because Appellant cannot
establish the first element of equitable estoppel -- lack
of knowledge. The facts clearly reflect that Appellant
had “the means of knowledge of the truth as to the facts
in question.” Barber, 556 S.E.2d at 336. Indeed,
Appellant conceded as much.
Specifically, Peters testified that (1) he left a
receipt on Edwards’s desk in the office after he filled
the tanks on July 13; and (2) he noted on the hanging
tag that the tank was filled on July 13. While Appellant
argued during litigation that the tag would not have
been reliable because Peters did not note the date of
every service, at his deposition, Appellant testified that
Peters signed the tag “each and every time that
[Peters] c[a]me and filled the tank except [August 31],”
J.A. 330, and he had simply not paid attention to the
dates on the tag until he discovered the empty tanks,
except on rare occasions where Peters was “running a
little late from” the last refill of the tanks. Id. at 336.
Beyond this admission, Appellant could have
learned that the tank had not been filled on August 31
by simply checking the levels of the tank as the
Agreements required. Or, Appellant could have learned
that the tank had not been filled on August 31 by
performing what he himself referred to as “the easiest
first check,” J.A. 166, lifting the tanks to check the

24a

weight. Given that the tanks were to be refilled
approximately every twelve weeks, the tanks would
have been half of the expected weight of a freshly
refilled tank on August 31. Consequently, if Appellant
or Edwards had lifted the tank on or after August 31,
the difference in weight would have been appreciable
and would have clearly indicated that the August 31 fill
date could not be accurate. Thus, Appellant certainly
had “the means of knowledge of the truth as to the facts
in question.” Barber, 556 S.E.2d at 336.
Accordingly, like the district court, we hold that
Appellant failed to establish an essential element of
equitable estoppel.
ii.
Written Contract
We first address Appellant’s argument that
Genex breached the written Agreements, then address
the possibility that one or more of the tanks is not
covered by a valid written contract. Because we reach
the same conclusion in either scenario, we need not
conclusively determine the Agreements’ scope and
validity.
The Agreements expressly waive Genex’s
liability for consequential damages. They each include
an “Embryo Storage Policy” providing that “Genex will
not accept responsibility or liability for embryos or any
other frozen biologic products.” J.A. 239–42. The
Agreements further provide that “Genex shall have ...
no liability for special, incidental, indirect, punitive, or
consequential damages.” Id. Finally, they place “full
and sole responsibility ... to monitor [the liquid
nitrogen] level routinely” on Appellant. Id.

25a

Even if Genex breached the Agreements by
terminating them without 60 days’ notice, or by
providing Appellant inaccurate information about the
most recent service date, Appellant’s only claimed
injury is the loss of semen and embryos -- a
consequential damage that the Agreements plainly do
not cover. The lost reproductive stock was a “frozen
biologic product” for which Genex disclaimed liability.
And, the injury could have been avoided if
Appellant had performed his responsibility to regularly
monitor the tank levels.
Appellant contends that his and Edwards’s
practice of visually inspecting the tanks satisfied this
responsibility, but the undisputed facts establish that
this is incorrect. Appellant testified that neither he nor
his son routinely measured the levels in the tanks
regularly from June to the end of September -- rather,
Appellant testified that he and his son only regularly
visually inspected the tanks, which, as noted above,
only indicates whether the tank is defective. Such
visual inspection does not reveal the level of liquid
nitrogen inside the tanks. Critically, Edwards testified
that when he went into the tank in October and found
the tanks to be empty, that was the first time that he
had actually opened the tanks since June or early July.
See J.A. 148 (“I don’t know when the last time I was in
[the tanks was] but it would have been somewhere [in]
June, or first of July, something like that, was probably
the last time I was in [the tanks].”). Therefore, the
levels of liquid nitrogen in the tanks went unmonitored
for at least 16 weeks before Appellant discovered the
tanks were empty.
It is clear, then, that Appellant failed to meet his
contractual responsibility, and that Genex was not
liable under the Agreements for the injury he claims.

26a

b.
Oral Contract
Next, even if we were to assume that no valid
written contract exists, and the parties’ relationship
was instead governed by an oral contract, Appellant’s
breach of contract claim still fails. Specifically,
Appellant failed to adduce any evidence to establish or
plead the terms of the oral contract, including any term
relating to the length or termination of the contract.
And, under North Carolina law, where there is no
definite end date for an oral contract, the contract is
terminable at will. See City of Gastonia v. Duke Power
Co., 19 N.C.App. 315, 199 S.E.2d 27, 30 (1973) (“[W]here
no time is fixed for the termination of a contract it will
continue for a reasonable time ... and where the
duration of the contract cannot be implied ... the
contract is terminable at will by either party on
reasonable notice to the other.”).
Thus, Genex could terminate the contract at any
time so long as it provided Appellant reasonable notice.
And, because Appellant does not contest the
reasonableness of the notice here, the letter notifying
Appellant of cancellation validly terminated the
contract. See Oral Argument at 4:56–5:05, Edwards v.
Genex Coop., Inc., No. 18-1183 (4th Cir. Mar. 21, 2019),
http://www.ca4.uscourts.gov/oral-argument/listen-tooral-arguments (“We’re not particularly arguing that
they didn’t give reasonable notice, but what we did was
detrimentally rely on that notice, which was clearly in
error.”).
Given that the letter made termination effective
upon receipt, Genex’s obligations under any oral
contract that may have existed ceased on September
23, 2015 -- the date Appellant received the letter -- and

27a

Genex had no obligation to fill Appellant’s tanks after
that date. As such, we conclude that Genex did not
breach any oral contract.
Moreover,
North
Carolina’s
Uniform
Commercial Code provides that a buyer may only
recover consequential damages resulting from a seller’s
breach “which could not reasonably be prevented by
cover or otherwise.” N.C. Gen. Stat. § 25-2-715(2)(a). By
failing to monitor the tanks, including “the easiest first
check” of simply lifting them up, J.A. 166, Appellant
failed to take reasonable measures to prevent the
consequential damages that he now claims.
Because Appellant’s claim fails whether an oral
or written contract applies, we affirm the district
court’s decisions to grant Genex’s motion for summary
judgment and to deny Appellant’s motion for judgment
on the pleadings or, in the alternative, summary
judgment.
III.
For these reasons, the judgment of the district
court is
AFFIRMED.
Footnotes
1Citations to the “J.A.” refer to the Joint
Appendix filed by the parties in this appeal.
2Nitrogen, in its liquid state, is used to quickly
freeze or store materials because of its low temperature
(-320°F). Liquid nitrogen has numerous applications,
such as cryogenics, molecular gastronomy, and -- as in
this case -- the freezing of bovine biological products.
3“Sire” refers to a male bull (an uncastrated
male cow) and “dam” to a female cow. See J.A. 383.

28a

4According to Appellant’s expert, Mark Wilburn,
tank failure would be caused by loss of vacuum. This
loss of vacuum would cause the tanks to “sweat” as the
coolant (liquid nitrogen) escaped and the biologic
product within defrosted. The tanks would not “sweat”
if the liquid nitrogen simply evaporated -- rather, the
liquid nitrogen would “just dissipate as normal.” J.A.
411.

29a

United States District Court, E.D. North Carolina,
Southern Division.
Dexter EDWARDS d/b/a Edwards Land & Cattle,
Plaintiff,
v.
GENEX COOPERATIVE, INC., Defendant.
No. 7:16-CV-53-BO
Signed 02/08/2018
Attorneys and Law Firms
Kennedy Lee Thompson, E.C. Thompson, III,
Thompson & Thompson, P.C., Warsaw, NC, for
Plaintiff.
J. Matthew Little, Rebecca Ann Rausch
Thornton, Teague, Campbell, Dennis & Gorham, LLP,
Raleigh, NC, for Defendant.
ORDER
TERRENCE W. BOYLE,
DISTRICT JUDGE

UNITED

STATES

This cause comes before the Court on
defendant's motion for summary judgment and
plaintiff's motion for judgment on the pleadings or in
the alternative for summary judgment. The appropriate
responses or replies have been filed, and a hearing was
held on the motions before the undersigned on January
3, 2018, at Raleigh, North Carolina. Also pending before
the Court is a motion to strike filed by defendant, to
which plaintiff has responded. In this posture, all of the
pending motions are ripe for ruling.

30a

BACKGROUND
Dexter and Nicholas Edwards filed this action
alleging a claim for breach of contract against
defendant, Genex Cooperative. Dexter Edwards, doing
business as Edwards Land & Cattle, engages in the
genetic reproduction of cattle, specializing in “purebred genetics.” Edwards Land & Cattle (EL&C)
contracted with Genex for many years to provide liquid
nitrogen to cool storage tanks containing bovine
embryos and semen. This case arises out of an alleged
misrepresentation to EL&C by Genex that Genex had
filled plaintiff's storage tanks with liquid nitrogen on
August 31, 2015; plaintiff was billed for an August 31,
2015, delivery of liquid nitrogen when in fact no
delivery was made. [DE 49-2]. On September 17, 2015,
Genex notified EL&C that it would no longer be
providing them with liquid nitrogen services as Genex
would no longer have a salesperson in that area. [DE
49-1]. Nicholas Edwards checked the level of liquid
nitrogen in the tanks on or about October 12, 2015, [DE
49]; [DE 46-2] Edwards, N. Depo. at 81, and, due an
insufficient amount of liquid nitrogen, much of
plaintiff's reproductive bovine stock had been
destroyed.
Plaintiff Nicholas Edwards was removed as a
plaintiff in the case on a motion by the plaintiffs, and
plaintiff's attempt to amend the complaint to add a
claim for unfair and deceptive trade practices under
N.C. Gen. Stat. § 75.1 was twice denied by the Court.
The parties have engaged in discovery and filed the
instant dispositive motions.

31a

DISCUSSION
A motion for judgment on the pleadings under
Fed. R. Civ. P. 12(c) allows for a party to move for
entry of judgment after the close of the pleadings stage,
but early enough so as not to delay trial. Fed. R. Civ. P.
12(c). Courts apply the Rule 12(b)(6) standard when
reviewing a motion under Rule 12(c). Mayfield v. Nat'l
Ass'n for Stock Car Auto Racing, Inc., 674 F.3d 369,
375 (4th Cir. 2012). “Judgment on the pleadings is not
properly granted unless the moving party has clearly
established that no material issue of fact remains to be
resolved and the party is entitled to judgment as a
matter of law.” United States v. Any & all Radio
Station Transmission Equip., 207 F.3d 458, 462 (8th
Cir. 2000). It is within a court's discretion whether to
consider matters outside the pleadings if presented,
and thereby convert the motion for judgment on the
pleadings to one for summary judgment under Rule 56.
A. S. Abell Co. v. Baltimore Typographical Union No.
12, 338 F.2d 190, 193 (4th Cir. 1964).
A motion for summary judgment may not be
granted unless there are no genuine issues of material
fact for trial and the movant is entitled to judgment as a
matter of law. Fed. R. Civ. P. 56(a). The moving party
bears the initial burden of demonstrating the absence of
a genuine issue of material fact. Celotex Corp. v.
Catrett, 477 U.S. 317, 323 (1986). If that burden has
been met, the non-moving party must then come
forward and establish the specific material facts in
dispute to survive summary judgment. Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,
588 (1986). In determining whether a genuine issue of
material fact exists for trial, a trial court views the
evidence and the inferences in the light most favorable

32a

to the nonmoving party. Scott v. Harris, 550 U.S. 372,
378 (2007). However, “[t]he mere existence of a scintilla
of evidence” in support of the nonmoving party's
position is not sufficient to defeat a motion for summary
judgment. Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 252 (1986). “A dispute is genuine if a reasonable
jury could return a verdict for the nonmoving party....
and [a] fact is material if it might affect the outcome of
the suit under the governing law.” Libertarian Party of
Virginia v. Judd, 718 F.3d 308, 313 (4th Cir. 2013)
(internal quotations and citations omitted). Speculative
or conclusory allegations will not suffice. Thompson v.
Potomac Elec. Power Co., 312 F.3d 645, 649 (4th Cir.
2002). When deciding cross-motions for summary
judgment, a court considers each motion separately and
resolves all factual disputes and competing inferences
in the light most favorable to the opposing party.
Rossignol v. Voorhaar, 316 F.3d 516, 523 (4th Cir.
2003).
The service contract between the parties signed
in 2004 provided as follows. Delivery of liquid nitrogen
was to be provided by defendant every ten weeks, the
agreement would remain effective until terminated by
either party with sixty days-notice, and the customer,
plaintiff, “accepts full and sole responsibility to
maintain [liquid nitrogen] biostatin good operating
condition, to monitor [liquid nitrogen] level routinely
and make the [liquid nitrogen] tank fully accessible to
the Genex representative for servicing.” [DE 39-1]. The
contract further provided that defendant would not
accept responsibility or liability for embryos in the
storage tanks and would only replace lost semen when
the product was lost through “unwillful neglect (tank
failure, etc.)”. Id. The contract between plaintiff and
defendant was signed by Nicholas Edward and a Genex

33a

representative, Robert Martin. Id. Plaintiff's amended
complaint alleges that a contract formed the basis of its
purchase of liquid nitrogen from defendant, and that
defendant regularly and customarily, pursuant to the
contract, kept plaintiff's tanks properly filled. [DE 37]
Amd. Cmp. ¶¶ 6,7. Defendant admits as much in its
answer. [DE 39] Ans. Amd. Cpm. ¶¶ 6,7.
According to Nicholas Edwards, Dexter
Edwards' son and farm manager, when the EL&C
embryo and semen storage tanks were filled with liquid
nitrogen by defendant, the technician left a green halfsheet of paper on his desk, which would indicate to Mr.
Edwards that the technician had been by to fill the
tanks. [DE 46-2] Edwards, N. Depo at 46-47. Nicholas
Edwards further stated that during breeding season,
November through June, he would be in and out of the
tanks and able to check them as often as daily and as
little as one time per week. Id. at 52. When they were
not in breeding season, Mr. Edwards testified that he
was either not monitoring the tanks a lot, or not at. Id.
at 52-53. According to Dexter Edwards, he had never
had a problem with Genex's service prior to the
cancellation of the contract. [DE 46-3] Edwards, D.
Depo. at 72.
Corey Peters, Genex's territory sales manager
who serviced plaintiff's tanks, testified that he placed a
sticker on each of plaintiff's storage tanks which stated
that the owner/user of the tank was responsible for
monitoring the liquid nitrogen level in the tanks. [DE
46-5] Peters Depo. at 15. Mr. Peters further testified
that he based the schedule of his service calls on the
shortest tank, that is, the tank that would have to be
refilled most often, and that the shortest tanks would
need to be refilled every three to four months. Id. at 3334. According to a tag hanging from one of plaintiff's

34a

tanks on which Mr. Peters recorded his service visits, in
2015 Mr. Peters serviced EL&C tanks on April 17,
2015, and July 13, 2015; in 2014 he serviced the tanks in
June, September, and December. [DE 46-10 at 7].1
The parties do not dispute that Mr. Peters filled
plaintiffs tanks with liquid nitrogen on July 13, 2015.
See [DE 50 at 4]. However, an invoice provided to
plaintiff from defendant showed that the service date
for a tank fill was August 31, 2015, the same date as the
statement date. [DE 49-2]. In a letter dated September
17, 2015, Mr. Peters informed plaintiff that defendant's
liquid nitrogen service would be discontinued on receipt
of the letter. [DE 49-1]. The letter further stated that
plaintiff's tank was serviced on August 31, 2015, to
allow plaintiff time to find a new provider. Id. The
parties further do not dispute that plaintiff's tanks
were not in fact serviced on August 31, 2015.
Plaintiff's motion for judgment on the pleadings or
summary judgment
Plaintiff advances only a claim for breach of
contract against defendant, alleging that defendant's
failure to timely deliver liquid nitrogen resulted in
damage to plaintiff. A claim for breach of contract
under North Carolina law, which both parties have
argued applies in this case, requires a showing first of
the existence of a valid contract and second of breach of
the terms of the contract. Poor v. Hill, 138 N.C. App.
19, 26 (2000). A valid contract requires mutuality of
agreement supported by adequate consideration.
Croom v. Goldsboro Lumber Co., 182 N.C. 217, 108 S.E.
735, 737 (1921); Creech ex rel. Creech v. Melnik, 147
N.C. App. 471, 477 (2001). A breach of contract is
actionable where the breach is material, which means
that it is “one that substantially defeats the purpose of

35a

the agreement or goes to the very heart of the
agreement, or can be characterized as a substantial
failure to perform.” Long v. Long, 160 N.C. App. 664,
668 (2003). Failure to comply with a duty assumed by a
party to a contract constitutes breach. Sechrest v.
Forest Furniture Co., 264 N.C. 216, 217 (1965) (internal
alterations and citation omitted). The remedy for
breach of contract is actual damages, “which are those
that may reasonably be supposed to have been in the
contemplation of the parties when the contract was
made or which will compensate the injured party for
the loss which fulfillment of the contract could have
prevented or the breach of it has entailed.”
Weyerhaeuser Co. v. Godwin Bldg. Supply Co., 292
N.C. 557, 560-61 (1977) (internal quotation and citation
omitted).
The terms of the contract between plaintiff and
defendant plainly provide that the responsibility to
monitor the liquid nitrogen levels in the storage tanks
was solely plaintiff's. In support of plaintiff's motion for
judgment on the pleadings and in opposition to
defendant's motion for summary judgment, plaintiff
takes the position that the written contract between
plaintiff and defendant is not valid and is therefore
unenforceable. Plaintiff contends first that, because the
signor of the contract, Nicholas Edwards, is plaintiff's
son and the EL&C farm manager, “the issue arises
whether Nicholas' actions can be imputed to the
Plaintiff, Dexter Edwards.” [DE 49 at 8]. Plaintiff
further notes the location of Nicholas Edwards'
signature on the document, arguing that he did not
agree to all provisions. Plaintiff also contends that the
contract is poorly written and ambiguous in many
respects and is unconscionable.

36a

As to Nicholas Edwards' authority to enter into
the written contract with defendant, there are no facts
or allegations which would support that Nicholas
Edwards did not have, at a minimum, apparent
authority to enter into the contract with defendant. It
is undisputed that Nicholas Edwards signed the
contracts, Dexter Edwards testified that he left review
of the agreements with defendant to his son Nicholas,
[DE 46-3] Edwards, D. Depo. at 56-7, and there is no
evidence that Nicholas Edwards gave any indication to
defendant that he was acting outside the scope of his
apparent authority to enter into the contract. See
Branch v. High Rock Realty, Inc., 151 N.C. App. 244,
250 (2002). “Pursuant to the doctrine of apparent
authority, the principal's liability is to be determined by
what authority a person in the exercise of reasonable
care was justified in believing the principal conferred
upon his agent.” Id. Plaintiff has neither pleaded nor
come forward with any evidence which would tend to
show that a person in the exercise of reasonable care
would have been unjustified in believing that Nicholas
Edwards had full authority to enter in a contract to
provide liquid nitrogen services and that plaintiff would
be bound thereby.
Plaintiff's contention regarding the location of
Nicholas Edwards' signature as raising some question
as to what portion of the contract was entered into is
unsupported by any pleading or evidence and is without
merit. Directly above Nicholas Edwards' signature
reads “I have read the above Embryo Storage Policy
and agree fully with its terms.” [DE 39-1]. As to the
ambiguity of the terms of the contract, plaintiff's
argument fails. “A contract that is plain and
unambiguous on its face will be interpreted by the court
as a matter of law.” Schenkel & Schultz, Inc. v. Hermon

37a

F. Fox & Assocs., P.C., 362 N.C. 269, 273 (2008). “An
ambiguity exists in a contract when either the meaning
of the words or the effect of provisions is uncertain or
capable of several reasonable interpretations.” Id.
Plaintiff points to the following language from
the damages limitations section of the contract as
ambiguous:
Genex will not accept responsibility or liability
for embryos or any other frozen biologic
products stored in customer's tank(s) that are
filled with [liquid nitrogen] by its employees.
The Court finds nothing in this provision to be
ambiguous; the provision sets out a limitation on
damages for stored embryos or other biologic product
in a customer's tank which is filled with liquid nitrogen
by Genex employees. Plaintiff has further failed to
demonstrate or create a genuine issue of material fact
as to whether a damages limitation provision is
unconscionable or void as against public policy.
Moreover, defendant correctly argues that if the
written contract between plaintiff and defendant is
unenforceable, then there is no contract the terms of
which defendant could have breached. Although
plaintiff contends there was “without question” a verbal
contract between the parties, plaintiff has failed to
plead or establish the terms of that verbal contract.
Finally, even viewing the facts in the light most
favorable to plaintiff and finding there to be a oral
contract between the parties, plaintiff has proffered no
allegation or evidence that this contract was for a
definite term, and thus the oral contract would have
been terminable at will by either party. City of
Gastonia v. Duke Power Co., 19 N.C. App. 315, 318
(1973) (citation omitted). Plaintiff's loss occurred after

38a

the termination of the contract on September 17, 2015,
and thus his claim for breach would fail.
Defendant's motion for summary judgment
When viewing the facts in the light most
favorable to plaintiff, plaintiff's breach of contract claim
fails and defendant is entitled to summary judgment in
its favor. It is undisputed that plaintiff's tanks were
filled by defendant on July 13, 2015, and proper notice
was given to plaintiff regarding defendant's
cancellation of the contract. Although the invoice and
cancellation notice sent to plaintiff listed the incorrect
date for the most recent date of service, the hanging
tag placed on plaintiff's storage tank by Mr. Peters
after servicing the tanks reflected a service date of July
13, 2015, [DE 46-10 at 7], and plaintiff retained at all
times the duty under the contract to monitor the levels
of liquid nitrogen in the EL&C tanks. That the liquid
nitrogen supply in plaintiff's tanks became too low or
ran out prior to plaintiff's inspection is not evidence of
defendant's breach.
Plaintiff argues in opposition to summary
judgment that defendant's misstatement of the last
date of service on both the final invoice and the
cancellation letter should operate as an estoppel against
defendant's argument that plaintiff breached the
contract by failing to monitor his tanks.
The essential elements of equitable estoppel as
related to the party claiming the estoppel are: (1) lack
of knowledge and the means of knowledge of the truth
as to the facts in question; (2) reliance upon the conduct
of the party sought to be estopped; and (3) action
thereon of such a character as to change his position
prejudicially.

39a

Crisp v. E. Mortg. Inv. Co., 179 N.C. App. 213,
217 (2006) (quoting Meacham v. Montgomery County
Board of Education, 59 N.C.App. 381, 386 n. 2 (1982)).
While plaintiff may argue that he had come to rely on
defendant's timely and regular service of the liquid
nitrogen tanks, any argument that he lacked the means
to know the truth of whether the tanks were, in fact,
filled is without merit. As plaintiff cannot establish an
essential element of an equitable estoppel argument,
his theory fails.
The contract terms provided that Genex would
fill plaintiff's storage tanks with liquid nitrogen and
that plaintiff would be responsible for monitoring the
liquid nitrogen levels in the tanks to prevent loss of or
damage to his stored biologic products. Plaintiff has
failed to create a genuine issue of material fact as to
whether Genex breach the service contract. Because in
deciding the instant motions the Court need not reach
the issue of damages, it declines to strike the affidavit
of Dr. Hinshaw and denies defendant's motion to strike.
CONCLUSION
For the foregoing reasons, defendant's motion
for summary judgment [DE 45] is GRANTED,
plaintiff's motion for judgment on the pleadings [DE 48]
is DENIED, and defendant's motion to strike [DE 54]
is DENIED. The clerk is DIRECTED to enter
judgment and close the file.
SO ORDERED, this 8 day of February, 2018.
Footnotes
1 An additional service date appears to be listed for
2014 but the date is not readable on the exhibit.

40a

United States Court of Appeals, Fourth Circuit.
Dexter EDWARDS, d/b/a Edwards Land & Cattle,
Plaintiff - Appellant,
and
Nicholas Edwards, d/b/a Edwards Land & Cattle,
Plaintiff,
v.
GENEX COOPERATIVE, INC., Defendant Appellee.
No. 18-1183
July 10, 2019
ORDER
The court denies the petition for rehearing. Entered at
the direction of the panel: Judge Wynn, Judge Diaz, and
Judge Thacker.
For the Court
s/Patricia S. Connor, Clerk

